No. 19-123
IN THE

Supreme Court of the United States
SHARONELL FULTON, ET AL.,
v.

Petitioners,

CITY OF PHILADELPHIA, ET AL.,
Respondents.
On Writ of Certiorari to the United States
Court of Appeals For The Third Circuit
BRIEF OF FOSTERCLUB AND FORMER
FOSTER YOUTH AS AMICI CURIAE IN
SUPPORT OF RESPONDENTS
JESSE R. LOFFLER*
AMANDA L. NELSON
HARPER S. SELDIN
* Counsel of Record
COZEN O’CONNOR
45 Broadway, 23rd Floor
New York, New York 10006
jloffler@cozen.com
(212) 453-3926
Counsel for Amici Curiae
LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

TABLE OF CONTENTS
TABLE OF AUTHORITIES ..................................... ii
STATEMENT OF INTEREST OF AMICI CURIAE
FOSTERCLUB AND FORMER FOSTER YOUTH .. 1
SUMMARY OF ARGUMENT.................................... 2
ARGUMENT .............................................................. 3
I.

ALLOWING FOSTER CARE AGENCIES
TO DISCRIMINATE AGAINST LGBTQ+
FAMILIES HARMS FOSTER YOUTH BY
LIMITING THE AVAILABILITY OF
FOSTER HOMES .......................................... 3

II.

AMICI’S EXPERIENCES DEMONSTRATE
THE HARM CAUSED BY THE SHORTAGE
OF FOSTER FAMILIES FOR FOSTER
YOUTH GENERALLY AND LGBTQ+
YOUTH SPECIFICALLY................................ 6
A.

There are not enough foster homes
available to meet the need, and every
time a qualified family is turned away,
it harms foster youth ............................ 7

B.

A diverse and inclusive pool of potential
foster parents, including those headed
by same-sex couples, is critical for
many foster youth, particularly
LGBTQ+ foster youth ......................... 23

CONCLUSION ......................................................... 38
i

TABLE OF AUTHORITIES
Page(s)
Cases
Obergefell v. Hodges,
135 S. Ct. 2584 (2015)........................................... 5
Statutes & Rules
Rule 37.6 of the Supreme Court of the
United States ............................................................. 1
Other Authorities
Laura Baams, et al., LGBTQ Youth in
Unstable Housing and Foster Care,
143(3) PEDIATRICS (2019) .................................... 23
Frank J. Bewkes, et al., Welcoming All Families:
Discrimination Against LGBTQ Foster and
Adoptive Parents Hurts Children,
CENTER FOR AMERICAN PROGRESS
(Nov. 20, 2018). ................................................. 4, 5
Brief of Amici Curiae Former Foster Children and
Foster/Adoptive Parents and the Catholic
Association Foundation in Support of Petitioners,
Fulton v. City of Philadelphia, No. 19-123 (U.S.
June 3, 2020) ......................................................... 7
Brief for Amicus Curiae Family Equality Council,
Fulton v. City of Philadelphia,
No. 19-123 (U.S. Aug. 20, 2020) ........................... 5
ii

Information Memorandum on Lesbian, Gay,
Bisexual, Transgender and Questioning
Youth in Foster Care, U.S. DEPARTMENT OF
HEALTH AND HUMAN SERVICES ADMINISTRATION
ON CHILDREN, YOUTH AND FAMILIES
(Apr. 6, 2011)....................................................... 24
Jill Jacobs & Madelyn Freundlich,
Achieving Permanency for LGBTQ Youth,
85(2) CHILD WELFARE 299 (2006) ....................... 24
Meg Kinnard, In lawsuit, a Catholic mother from
Simpsonville alleges discrimination by Miracle
Hill, ASSOCIATED PRESS, Feb. 15, 2019 .............. 38
Ken W. Knight et al., The kids are OK:
it is discrimination, not same-sex parents,
that harms children, 207(9) MED. J. AUSTRALIA
(Oct. 2017) ............................................................. 5
Wendy D. Manning, et al.,
Child Well-Being in Same-Sex Parent Families,
33(4) POPULATION RESEARCH &
POLICY REV. 485 (2014) ......................................... 5
Julie Moreau, Anti-LGBTQ adoption bills
‘snowballing’ in state legislatures, rights group
says, NBCNEWS (Apr. 4, 2019) ........................... 4
Bianca D.M. Wilson, et al., Sexual and Gender
Minority Youth in Foster Care: Assessing
Disproportionality and Disparities in Los
Angeles, WILLIAMS INSTITUTE, UCLA SCHOOL OF
LAW (Aug. 31, 2014) ............................................ 23

iii

STATEMENT OF INTEREST OF
AMICI CURIAE
FOSTERCLUB AND
FORMER FOSTER YOUTH 1
Amicus FosterClub is a national network for
youth in foster care and formerly in foster care
dedicated to empowering those youth to realize their
full personal potential and contribute to a better life
for their peers. FosterClub believes that young
people’s experiences in foster care position them to
effect change within the system, inform and motivate
their peers, build public awareness, and create public
will for improved care for abused and neglected
children. In particular, FosterClub provides a peer
support network for children and youth in foster care,
including a significant number of LGBTQ+ youth, to
help them secure a brighter future for themselves
and the foster care system through advocacy,
education, and an extensive support network.
Amici former foster youth are individuals who
experienced the foster system across the Unites
States. These individuals were and continue to be
immeasurably impacted by the foster care system
and the shortage of available families. They are
strongly opposed to discrimination in the child
welfare system so that youth currently in foster care
have the best possible chance of being placed with a
The parties in this case have consented to the filing of
this brief. Pursuant to Rule 37.6, Amici Curiae state that no
counsel for a party has authored this brief, in whole or in part,
and no person, other than Amici or their counsel, has made a
monetary contribution to the preparation or submission of this
brief.
1

1

family that can support, nurture, and encourage
them to thrive.
SUMMARY OF ARGUMENT
Petitioners claim that the Constitution gives
government-contracted foster care agencies the right
to discriminate against qualified foster families
headed by same-sex couples based on their religious
objections to such families. The Petitioners’ claim, if
accepted by the Court, does not end with LGBTQ+
families: it will grant carte blanche to religiouslyaffiliated foster agencies to discriminate against any
family on the basis of not just LGBTQ+ status, but
also race, religion, or any other otherwise prohibited
ground of discrimination if they have a religious
objection to working with such families.
Amici know firsthand the consequences of the
already insufficient pool of families needed for
children in foster care. The Court should not sanction
such discrimination, which is antithetical to the
needs of youth in the system — including, but not
limited to, LGBTQ+ youth themselves, who often
have a harder time finding an accepting, supportive
placement — who need loving, stable homes. Where
tens of thousands of youth “age out” of the foster care
system every year without ever finding a supportive
family, the foster system is already facing serious
challenges securing enough homes. Petitioners’
request for an exemption to general nondiscrimination requirements is a request to turn
away applicants from a system where the rejection of
any qualified family is one too many.
2

Amici’s stories illustrate the significant and
long-lasting harms caused by an insufficient pool of
families to care for foster youth, which would only be
exacerbated if this Court were to accept Petitioners’
position and hold that government-contracted foster
care agencies have a free exercise right to exclude
families that do not meet their religious
requirements.
The Court should affirm the decision of the
Third Circuit.
ARGUMENT
As the experiences of Amici recounted below
demonstrate, the license to discriminate sought by
Petitioners for government-contracted foster care
agencies will directly harm the very youth those
agencies are supposed to be serving by limiting foster
youth’s chances for an appropriate, loving, and
supportive family placement.
I.

ALLOWING FOSTER CARE AGENCIES
TO DISCRIMINATE AGAINST LGBTQ+
FAMILIES HARMS FOSTER YOUTH BY
LIMITING THE AVAILABILITY OF
FOSTER HOMES

There is nothing hypothetical about the harms
faced by foster youth from discrimination against
loving families who are qualified to foster but turned
away solely because they are headed by same-sex
couples or otherwise do not meet an agency’s
religious requirements.
Every qualified family
turned away or delayed from fostering harms the
3

children relying upon that system, as the stories of
Amici below make abundantly clear.
Where same-sex couples are six to seven times
more likely than different-sex couples to foster or
adopt, discrimination against LGBTQ+ families
unfortunately has a uniquely outsized effect. See
Frank J. Bewkes, et al., Welcoming All Families:
Discrimination Against LGBTQ Foster and Adoptive
Parents Hurts Children, CENTER FOR AM. PROGRESS
(Nov.
20,
2018)
[hereinafter
“Bewkes”],
https://www.americanprogress.org/issues/lgbtqrights/reports/2018/11/20/461199/welcoming-allfamilies/. Discrimination against LGBTQ+ families
is also already prevalent in the United States and, in
the context of the foster and adoption systems, is
growing. See Julie Moreau, Anti-LGBTQ adoption
bills ‘snowballing’ in state legislatures, rights group
(Apr.
4,
2019),
says,
NBCNEWS
https://www.nbcnews.com/feature/nbc-out/antilgbtq-adoption-bills-snowballing-state-legislaturesrights-group-says-n991156.
That means that the families most likely to
foster or adopt — those headed by same-sex couples
— are also more likely to be discriminated against
and turned away.
Allowing agencies to reject
qualified families as a matter of course thus limits
the availability of homes within the foster care
system. See Bewkes (“Turning qualified prospective
parents away only stresses an already stressed
system, and LGBTQ people represent an important
subgroup of potential parents.”).

4

It has been clear for decades that families
headed by same-sex couples can provide a loving
home for children. 2 Given the large number of youth
waiting for families, turning away qualified families
harms children, like Amici, who are otherwise likely
to remain in congregate care or age out. And turning
away qualified LGBTQ+ families creates serious
stigma and psychic harm not just for those families,
but also LGBTQ+ foster youth. That signals to
LGBTQ+ youth that there is something wrong, or
deficient, with families headed by people like them.
Being told that, essentially, they are better off with
no family than a family headed by a same-sex couple
is wide-ranging harm.
As Respondents and other amici point out,
discrimination against families headed by same-sex
couples can delay them from becoming foster families
or can deter and prevent them from participating in
the foster care system entirely. See Brief for Amicus
Curiae Family Equality Council, Fulton v. City of
Philadelphia, No. 19-123 (U.S. Aug. 20, 2020).
Indeed, some LGBTQ+ families who are turned away
See Obergefell v. Hodges, 135 S. Ct. 2584, 2600 (2015)
(“[A]ll parties agree, many same-sex couples provide loving and
nurturing homes to their children, whether biological or
adopted.”); Bewkes (“Numerous studies have also shown that
children of gay or lesbian parents fare as well as children of
different-sex parents; they are also just as healthy, both
emotionally and physically.”); Wendy D. Manning, et al., Child
Well-Being in Same-Sex Parent Families, 33(4) POPULATION
RESEARCH & POLICY REV. 485, 486 (2014) (discussing the “clear”
“consensus in the social science literature”); see also Ken W.
Knight et al., The kids are OK: it is discrimination, not same-sex
parents, that harms children, 207(9) MED. J. AUSTRALIA (Oct.
2017).
2

5

for being LGBTQ+ abandon their pursuit of fostering.
See id. Where 20,000 foster youth age out of the
foster care system every year, every potential foster
family matters and every rejection of an otherwise
qualified foster family hurts the youth in the foster
care system.
As Amici’s stories below demonstrate, there
are not enough families to give every child in foster
care a loving, supportive placement meeting their
unique needs, and that has profound consequences
for these youth. Discriminatory barriers to fostering
harm not only the families headed by same-sex
couples seeking to foster, but also the youth the foster
care system is supposed to protect and place in loving
homes. Petitioners ask the Court to sanction very
real harm to the foster care system’s ability to
provide for the youth in its care. The Court should
not hand government-contracted foster care agencies
such a license to discriminate.
II.

AMICI’S EXPERIENCES
DEMONSTRATE THE HARM CAUSED
BY THE SHORTAGE OF FOSTER
FAMILIES FOR FOSTER YOUTH
GENERALLY AND LGBTQ+ YOUTH
SPECIFICALLY

Discriminatory
policies
that
exclude
prospective foster parents in same-sex couples and
other families harm all foster youth, both LGBTQ+
and not. Former foster youth who shared their
stories in support of Petitioners fortunately found
loving homes, but there are so many others that have
6

not. 3 It is not the successful foster situations of
Petitioners’ amici that are at stake in this case: it is
the ability of all other foster youth to be placed in a
loving, safe, and permanent home.
As Amici explain, the deck is already often
stacked against LGBTQ+ youth, who make up a
disproportionate number of foster and adoptive
youth, often because their birth families abandon
them due to their sexual orientation or gender
identity. Enabling discriminatory policies in the
foster care system will only exacerbate the harms to
these vulnerable youth. The foster care system’s
goals should be ensuring that as many qualified
homes as possible are available so that no foster
youth ages out of the system without finding the love
and support of a “forever” family.
Granting
Petitioners the relief sought will have the opposite
effect, effectively ensuring that there are
substantially fewer homes available.
A.

There are not enough foster homes
available to meet the need, and
every time a qualified family is
turned away, it harms foster youth

The nationwide shortage of foster homes
means that tens of thousands of youth age out of
foster care without finding a family each year.
Turning away qualified families, whether due to

See Brief of Amici Curiae Former Foster Children and
Foster/Adoptive Parents and the Catholic Association
Foundation in Support of Petitioners, Fulton v. City of
Philadelphia, No. 19-123 (U.S. June 3, 2020).
3

7

their LGBTQ+ status, or based on race, religion, or
any other reason that has nothing to do with
caregiving ability, deals a serious blow to the children
relying on the foster care system.
As illustrated below, youth who age out of the
foster care system without a supportive family find
themselves on their own, often struggling with
homelessness, unemployment, and the trauma from
the multiple placements they cycled through during
care.
Preventing LGBTQ+ families and other
qualified families from fostering children means
more children are likely to end up in congregate care
or find themselves alone and unsupported after foster
care.
Joseph DeBiew, Buffalo, New York
Joseph, pictured below, now lives in Buffalo,
New York.

8

Joseph was placed in state custody at age 13,
and spent seven years “bouncing around between five
different group homes” because of the lack of foster
families.
Joseph recalls that “[t]he lack of available
homes meant that I spent seven years in a jail-like
setting purely because there weren’t any other
housing options available.” While these homes
provided for his basic needs and he did not suffer
abuse, he, like many youth in group settings, “grew
up feeling like there were no adults in my life who
really cared about me.”
The unfortunate outcome for many youth in
these situations “normalizes the super-structured,
non-family life for young people” where “youth learn
to adapt to a prison-like lifestyle, making it easier to
follow in the foster care-to-prison pipeline.” Joseph
believes that congregate care settings “deprive[]
[youth] of space to grow and develop in a healthy,
family-like setting, where they can learn boundaries,
healthy-risk taking, and have a support network to
rely on.” He has seen “facilities where discrimination
is the practice, even if it’s not in policy” and staff do
not “step in to protect or correct instances where
others were trans- or homophobic and harassing
other youth.”
Joseph wishes that there were enough families
to provide foster youth — particularly those in
congregate care or group homes — with loving and
supportive homes. He thinks “growing up in a foster
home would have been a lot different … I could not
have cared less about the sexual orientation or
9

gender identity of [my] foster parents, I just wanted
a family and a supportive place to call home.”
It is obvious to Joseph that “allowing all
qualified parents to be foster parents would mean
that fewer youth have to grow up in congregate care
facilities like I did.” He believes diversity among
foster families is critical: “Ensuring that LGBTQ+
potential parents, people of different religious beliefs
(or no faith), and others who wish to become foster
parents to provide a home for young people in care
would provide more options to young people to find a
family who will provide love and support as they
navigate their journey.”
Elbert Wilson, Lexington, Kentucky
Elbert, pictured below, is now 29 years old, and
lives in Lexington, Kentucky.

10

After his birth mother’s struggle with
addiction, Elbert and his three siblings were placed
in foster care, which made him feel like “an inmate
who was falsely convicted and sentenced to another
family.” Elbert “was shuffled through foster homes,
new schools, different counties, and different mental
health diagnoses.”
Elbert hoped that would change when, at age
12, he was placed in a home with his siblings, but
“[t]he forever family we dreamed of became a 4 year
nightmare along with trauma that will last a
lifetime.” After suffering physical abuse, Elbert and
his siblings were removed and returned to another
foster care placement.
Later, Elbert, then aged 16, and his siblings
were sent to live with a religious older couple, who
had them “baptized involuntarily and forced [them]
to attend mandatory services.” Elbert and his
siblings were “labeled as defiant because of our
opposition” to abandoning their own faiths for that of
their foster family. After the trauma of their first
placement, the next placement also failed. Elbert felt
that they were simply thrown away: “We were taken
to the local [state agency] and dropped off and our
clothes were brought to us later in black garbage
bags. Our only belongings stuffed in bags meant for
garbage.” The siblings were soon split up. Elbert,
given his age, entered a group program and his two
youngest brothers were separated from his sister.
At age 21, Elbert aged out of the foster system
without permanency. He observes that “no child
should emancipate from state care without a family
11

or support system in place.” Too often, “young people
are becom[ing] victims of a system that fails them”
for many reasons, when it should be “keeping the best
interest of the young person first.”
Elbert wants to see a foster system that cares
for the needs of every youth. He understands,
firsthand, that there is “a shortage of homes and
families,” and discrimination will only make that
shortage worse: “The requirements to adopt an
individual are already a barrier and the additional
restriction will reduce the number of people who are
already desperately needed.” Elbert believes that “fit
and willing individuals who are qualified should not
be denied” from fostering because there are “many
deserving young people desperately wanting a
forever family and seeking the beauty of belonging”
and the “best interest of the young person” should not
be overridden by discriminatory views of the agency.
Dameon Caldwell, Toledo, Ohio
Dameon is now 25 years old, and lives in
Toledo, Ohio. Dameon spent over 12 years in foster
care before aging out at 18, and then spent four years
in a post-emancipation program for those who exit
the system without a supportive family. Dameon was
placed in seven different foster families and three
different group homes. When he tried to come out as
gay, his caseworker said he was confused and forced
him into therapy. When he came out to one set of
foster parents, he was “treated like trash,” and
another foster parent “beat [him] and told [him he]
was an abomination and to stay away from their
child.”
Dameon’s last foster family told his
12

caseworker that they would kick him out after he
turned 18, and kept their word. The day after
Dameon aged out, “my foster family took me to the
University of Toledo, where I would begin college,
with all my stuff and dropped me outside the dorms
and I never saw them again. I was left to begin
college and adulthood without a support system.”
Dameon is working hard to ensure that other
foster children do not suffer as he did, and founded
Rebuilding Hope, a community resource and
advocacy group for youth like him. Coming from a
place of experience as a foster child, as well as his role
as an advocate on behalf of foster youth, Dameon
explains “[i]f I had the opportunity or even the option
of having a foster or adoptive family that was LGBT
like me or even just a supportive family, it would
have saved me so much trauma, so much heartbreak,
and so much pain.” According to Dameon, allowing
discrimination only continues to enable the same
harms he suffered: “Persecution and religious beliefs
shouldn’t be a factor when finding a child their
forever home.”
Terry Scraggins, Boise, Idaho
Terry, now 31 years old, and pictured below,
entered the foster care system at 12 years old and
remained in care until he aged out at 18.

13

During those six years, he lived in over 20
different placements, including a stay in congregate
care for “at risk youth,” even though he did not fall
into that category, because of a lack of other
placement options for him. Terry “oftentimes felt
rejected and unsupported because of my sexual
orientation.” One foster parent told him, “Gay people
are sinners who have no direction in life.” When
moving placements, Terry’s foster parents would
contact his soon-to-be foster parents about his
sexuality, “which led to both tension and
discrimination even before I arrived at my new
destination.” Terry believes that his “[q]uality of life
within the child welfare system would have been
drastically more positive had there been individuals
whom I could turn to in times of need. To feel support
14

rather than ridicule would have made all the
difference in my development as a teenager.”
Terry is grateful to the Casey Family Program,
which helped his grandparents become licensed
foster parents when he was 16 and “encourages
inclusivity as well as the LGBTQ+ community.”
Despite his struggles, Terry has “learned to embrace
my experiences and use my experience and
knowledge to advocate and foster change for current
youth in care who do not have a voice.”
Re’Gine Jordan Wells, Ohio
Re’Gine spent five years in foster care in five
different placements, none of which supported her.
This left Re’Gine feeling that the foster system had
failed her. That was the exact opposite of her
brother’s experience: he “hit the jackpot when it came
to a foster parent — loving, supportive, and always
willing to do what needed to be done.” Her brother’s
foster parent, who “also happened to be single and
gay,” helped him complete college applications, was
there when he graduated from high school, moved her
brother in to his college dorm, and always kept the
door open on holidays and vacations. This love and
support continued through and after college, not only
for Re’Gine’s brother, but for Re’Gine herself.
Re’Gine wishes that she could have found a foster
parent with such a positive and instrumental impact
on her life.
Re’Gine now works to support foster children
and programs, utilizing her firsthand knowledge of
the importance of encouraging love and support in a
foster home: “Supporting people that are open and
15

willing to make room in their homes and hearts for
youth in care should be top priority ... no matter how
they identify.”
Re’Gine perfectly summarizes the problems
with the Petitioners’ claimed right to an exemption
from the City’s non-discrimination requirement:
Currently, there’s a shortage of foster
homes due to the opioid epidemic.
Discriminating against homes because
of [sexual orientation or gender
identity] is not only a disservice to the
system, but it is a disservice to the
youths that are just looking for a
forever home.
It’s a disservice to
anyone looking for family. Family
should not be made to look one way.
Family should not be put in a box or
discriminated against. Family is a
feeling, it’s an action, and it’s
something youth in care deserve to feel.
Youth in care have a right to family.
Discriminati[on]…deprives them of
that.
Maven G., Washington
Maven is now 24 years old, and lives in
Washington. Maven entered the foster system at age
5 and spent thirteen years in the system, bouncing
through over twenty homes and group care facilities
before aging out without a supportive family. During
these formative years, Maven was subjected to
prejudice and homophobia and placed in group homes
where staff were often hostile, harassing, and
16

unaccepting because Maven identified as LGBTQ+.
The families Maven was placed with proved no
better: foster parents forced Maven to attend church
in an attempt to change Maven, and verbally abused
and shamed Maven, “going out of their way to make
me feel ostracized and alone in their care” because
Maven would not conform to their views on LGBTQ+
people. Eventually, this longstanding mistreatment
by foster parents unwilling to accept Maven’s gender
identity resulted in Maven actively self-harming, and
hiding their sexual orientation and gender identity.
The foster system never found Maven an
adoptive home or a foster family that would accept
Maven, and they experienced homelessness for
approximately 3.5 years.
Due to Maven’s
experiences, Maven recounts that the foster care
system was “hands down the most traumatic thing
I’ve experienced.”
Maven feels lucky simply to have “made it out”
of the system alive and is “very proud of who I’ve
become and who I am still striving to be,” even
though these “scars” from Maven’s experiences are
permanent. Maven is now a published poet and a
social justice advocate, and hopes that sharing this
story will highlight the importance of ensuring that
the foster care system does not discriminate against
either LGBTQ+ foster families or LGBTQ+ youth. As
Maven puts it, “[h]aving an affirming family that
supported me and truly understood who I was would
have had such a positive impact” and “would have
helped my mental health so much to see myself
reflected in the people that surrounded me,” but “a
home that met my needs didn’t exist.”
17

Kristopher Sharp, New York, New York
Kristopher, pictured below, is now 30 years
old, and lives in New York, New York.

Kristopher was born in Texas and, at age 9,
entered the foster care system. Kristopher recalls
that, when he was removed from his birth family, “I
thought I would finally have the chance to escape the
abuse I had become so accustomed to” but instead
“was thrust into a nightmare that was worse than
anything I had experienced before.”
Over the next 8 years, Kristopher lived in
approximately two dozen different placements,
mostly in congregate care or group homes. He recalls
that the “abuse [wa]s pervasive in these facilities”
18

and he experienced physical and sexual violence.
Kristopher “was living in a state-sponsored hell, and
there was nothing [he] could do about it.”
Kristopher never found a placement because of
the severe shortage of foster homes. At age 18, he
aged out of the system in Houston and “[l]ike so many
youth who age out of foster care, overnight I was
homeless, on the streets with no family, no support,
and nowhere to turn.” Kristopher spent the next six
months on the streets, sleeping on the roof of a
shopping strip mall on the north side of Houston.
Kristopher shared his story for this brief in the
hope that the Court does not accept a result where
any qualified foster family is turned away:
At the heart of the foster care crisis in
this country is the simple fact that
there are not enough foster and
adoptive homes. So, why would anyone
think it acceptable to turn away
qualified, willing foster parents? At
best, allowing child welfare agencies to
discriminate based on their religious
beliefs creates an atmosphere of
confusion and discouragement for
families who want to foster or adopt in
a state that desperately needs more
families to do so. At worst, it robs
children of their livelihoods by unduly
denying LGBT, single, or nonChristian parents opportunities to save
children from the cycle of abuse and
neglect they will almost certainly
19

encounter growing up in the foster care
system. No child should have the
childhood that I had – especially when
there are people who are willing to
provide a safe and loving home.
*

*

*

*

*

Establishing a constitutional right for agencies
to discriminate against prospective foster or adoptive
families will harm all of the foster youth who would
have found a placement but for qualified families
being turned away. The harm is not hypothetical:
many youth, and disproportionally LGBTQ+ youth,
spend prolonged periods of time in congregate care or
group homes, have multiple placements when foster
families do not accept their LGBTQ+ identities, and
age out of the system without ever having a
supportive, loving family.
Fore example, Natalie Clark, pictured below,
grew up in Salt Lake City, Utah and learned very
quickly to try to hide her sexual orientation from
potential foster families. She explains that the foster
system is about more than meeting “basic needs” and
finding a place “where I was accepted, affirmed, felt
safe, and maybe even felt a little bit loved … would
have made an enormous difference,” rather than
Natalie’s experience, which resulted in her aging out
of the system without “stable family support” that is
“especially hard during times like this pandemic I am
currently facing alone.”

20

As the stories of the foregoing Amici make
clear, the foster system’s goals should be ensuring
that as many homes as possible are available so that
no foster youth ages out of the system without finding
the love and support of a “forever” family, or grows
up in congregate care rather than a foster home.
Granting Petitioners the relief sought would have the
opposite impact, effectively ensuring that there are
substantially fewer homes in the system.
In the words of Michael Outrich, pictured
below, who was emotionally abused while in foster

21

care placement then struggled with homelessness
after aging out:

Discrimination in care does nothing
but further traumatize and oppress
children who already have experienced
abuse, neglect, and trauma. They need
loving, accepting homes that can
nurture youth to grow into productive
and happy young adults who are healed
and whole.
Discrimination does
nothing but poison their chances at
being happy, accepted young adults
who can freely pursue their dreams,
goals, and aspirations.

22

B.

A diverse and inclusive pool of
potential foster parents, including
those headed by same-sex couples,
is critical for many foster youth,
particularly LGBTQ+ foster youth

In addition to maximizing the number of
qualified families and homes in the foster system,
ensuring a diverse pool of families is of the utmost
importance.
LGBTQ+ foster parents can be
especially well situated to support LGBTQ+ youth,
especially those who have been rejected by their
families or prior placements because they are
LGBTQ+.
This is particularly critical because LGBTQ+
youth are drastically overrepresented in the foster
care system. 4
According to some studies,
approximately 30.4% of youth in the foster care
system identify as LGBTQ+, nearly triple the
It is
proportion in the general population. 5
imperative that the foster system includes families
that can support LGBTQ+ youth and give them an
accepting and loving home.

See Laura Baams, et al., LGBTQ Youth in Unstable
Housing and Foster Care, 143(3) PEDIATRICS (2019).

4

Bianca D.M. Wilson, et al., Sexual and Gender Minority
Youth in Foster Care: Assessing Disproportionality and
Disparities in Los Angeles, WILLIAMS INSTITUTE, UCLA SCHOOL
OF
LAW
(Aug.
31,
2014),
https://www.acf.hhs.gov/sites/default/files/cb/pii_rise_lafys_repo
rt.pdf.
5

23

Indeed, where abuse, neglect, and a refusal to
accept them for who they are often leads children to
enter the foster care system, LGBTQ+ youth are
uniquely at risk for further trauma because of
rejection or mistreatment based on their sexual
orientation, gender identity, or gender expression.
For example, LGBTQ+ youth are more than twice as
likely as their non-LGBTQ+ peers to report poor
treatment while in foster care. 6 LGBTQ+ youth have
a higher average number of foster care placements
and are more likely to live in a group home or
congregate care setting. 7
As the stories below illustrate, the foster care
system can and should do better by LGBTQ+ youth
by ensuring the existence of a diverse and inclusive
foster family pool that includes LGBTQ+ foster
parents.
Brittney Barros, Ypsilanti, Michigan
Brittney, pictured below, is now 21 years old
and lives in Ypsilanti, Michigan.

Information Memorandum on Lesbian, Gay, Bisexual,
Transgender and Questioning Youth in Foster Care, U.S.
DEPARTMENT OF HEALTH AND HUMAN SERVICES ADMINISTRATION
(Apr. 6, 2011),
ON CHILDREN, YOUTH AND FAMILIES
https://www.acf.hhs.gov/sites/default/files/cb/im1103.pdf.
6

Jill Jacobs & Madelyn Freundlich, Achieving
Permanency for LGBTQ Youth, 85(2) CHILD WELFARE 299 (2006).
7

24

Brittney knew she was bisexual when she was
nine years old, but hid this fact from her birth family:
they had taught her that being LGBTQ+ was not
“natural” and LGBTQ+ people go to hell. Sadly,
Brittney was rejected by her birth family after finally
gathering the courage to come out. Brittney was
placed into foster care shortly thereafter.
While the “turmoil of being ripped away from
my family was already enough to scar me for life,”
Brittney recalls being hopeful that her foster
experience would be more positive and “the reality
that I would be living with a whole new family
encouraged me to embrace my identity.” Brittney
soon felt comfortable enough to come out to her new
foster family because they seemed like a loving family
to her.
25

However, when she came out to them
“everything changed” and “all of the sudden, my
loving foster family became a nightmare — a
nightmare I’m still trying to process today at age 21.”
Brittney states: “I will never forget the moment
where they transitioned from a caring and
empathetic family to a cruel and inhumane one.
Because of my sexual identity, I wasn’t worth being
addressed by my name.” Instead, Brittney was
referred to as “thing” and “it.” The family locked her
in her room when they had guests because “my foster
family was embarrassed by me.”
The emotional abuse became physical.
Brittney recalls that her foster family “came into my
room one night, with a belt, and forced me to say
things that I wasn’t comfortable with or else I would
be whipped,” and forced her to “confess” to
stereotypes about the LGBTQ+ community. Brittney
was forced to call herself derogatory terms for
LGBTQ+ people, or call herself a “prostitute” because
of her sexual orientation, or to tell herself that she
was going to hell. The family “would scream at me as
they threatened to whip me with the belt” unless she
repeated what they said.
She was “ashamed,
humiliated, and depressed.”
Fortunately, Brittney was removed from that
home after she reported the abuse. However, the
scars of losing her birth family and then being abused
by her foster family for the same reasons do not heal
easily. Brittney was placed with a new foster family
with knowledge and acceptance of her LGBTQ+
identity and although “my new foster family was
accepting … the impact of the trauma from the abuse
26

by my first foster family has had an everlasting
impact on my emotional well-being.”
Brittney explains why she shared her story:
I would like to believe that I’m the only
person that had to go through this but
I know that with LGBTQ+ youth being
over-represented in the system, I know
that many LGBTQ+ youth face this
type of discrimination. More so, there
is a new wave of LGBTQ+ families
being turned away from agencies
because of “religious affiliations.” It
was my dream, as I was facing my
nightmare, to live with an LGBTQ+
family. I wanted a family that could
resonate with my pain and help me to
explore my identity more. I believe if
LGBTQ+ families were accepted by
local and state agencies, the experience
of discrimination and abuse would
significantly lessen for LGBTQ+ youth
and youth in general.
Brittney’s biological family has become more
accepting, loving, and sensitive to LGBTQ+ issues in
the past two years after her brother came out as gay.
Brittney is hopeful that, by sharing her story, she will
be able to “express the harm and damage it does
when the foster care system discriminates against
LGBTQ+ youth and families” and that the Court will
consider the very real personal traumas that many
foster youth, particularly LGBTQ+ youth, face.
27

Tim Dennis, Tennessee
Tim, pictured below, lives in Tennessee.

Tim entered foster care at age 12, and then
moved homes “several times because homophobic
foster parents were unwilling to have me in their
home.” He was also abused by foster families because
he was gay. Because the agency could not find Tim a
foster family would accept him, he was eventually
placed in a congregate care setting, where he fared no
better.
This facility was run by “a religious
organization that is openly against LGBTQ [people]”
28

and “[w]hile with this organization I felt like I was a
prisoner and could not openly be who I was.”
Because Tim was in a rural area, there were
limited options and none of the foster families he was
placed with would accept him (and neither did his
first congregate care placement).
Eventually,
because he never found a “feeling of safety,” he hid
his sexual orientation.
Keeping his identity a secret took “a huge toll”
on Tim: he “self-harmed and entertained thoughts of
suicide.” When he was finally placed in a congregate
care setting with more supportive staff who
encouraged him to be himself, being accepted “was
definitely a weird feeling for me, because I had been
shunned for so many years now that I didn’t know
what it was like to be myself. It was a new
experience. I no longer had to hide who I was in order
to feel safe.”
Tim has served as a case manager who
supports LGBTQ+ young people, many of whom have
been disowned by their birth families. Tim shared
his story because, if he had been placed with a
supportive foster family, that “could have provided
the stability I needed after entering care. It could
have prevented me from entering a facility managed
by an openly anti-LGBTQ+ organization, where I
experienced even more discrimination.”
Tim is now a foster parent in Tennessee and
provide a supportive and loving home for all youth,
including LGBTQ+ youth, “so that they know that
they have a loving and safe environment.” According
to Tim, when LGBTQ+ youth “find a foster parent
29

who is willing to support and value their identity,
whether that parent identifies as LGBTQ+
themselves or not, the young person can finally relax,
grow, develop and heal.”
Tristan Torres, Las Vegas, Nevada
Tristan is now 23 years old and lives in Las
Vegas, Nevada.
Tristan spent nine months in the foster care
system in Nevada, beginning when he was 16 years
old. Tristan, like all children, had no choice about
which agency or organization managed his case.
Tristan’s foster parents abused him because he
was transgender: they locked him in his room,
berated him for being transgender, and forbade him
from speaking to other children in the home. Tristan
asked his caseworker for help, but received none.
Instead, his caseworker continued the discrimination
by preventing him from seeking any supportive
medical services and, in concert with his foster
parents, forbidding Tristan from attending support
groups for other transgender youth like Tristan.
Tristan’s second set of foster parents were no
better. After a family member found out Tristan was
transgender, his foster family abused him, even
withholding food as punishment. After five months
with that family, Tristan was “literally thrown out of
their house with my belongings in trash bags.”
Fortunately, despite the discrimination he
suffered in the foster system, Tristan found support
at The Center, an LGBTQ+ organization in Las
30

Vegas that “led a push for Nevada to include
mandatory LGBTQ+ training for foster parents.”
With this support, Tristan was able to get his life
back on track and graduated from high school after
leaving the foster care system (demonstrating that
his inability to succeed at the 7 different high schools
he attended while in foster care was directly related
to his lack of a supportive environment).
There is a direct connection between Tristan’s
experience and a shortage of supportive homes. As
Tristan explains: “There are a disproportionate
number of LGBTQ+ youth in the system. … We need
affirming placements with parents who can support
our needs and who understand how to care for
LGBTQ+ foster youth.”
Tristan is worried that allowing agencies to
discriminate will lead to a lack of accepting,
supportive, and loving homes for youth like him and,
unfortunately, more stories like his. As Tristan puts
it, “[a]llowing agencies to discriminate against
LGBTQ+ parents would mean we have less
prospective foster parents. This would shut the door
on children and youth needing support. Limiting
homes (when there’s already a shortage) would mean
children and youth are stuck in temporary
placements longer – lingering in limbo for no logical
reason. We must do better.”

31

Orion Olsen, Washington
Orion is now 21 years old and lives in
Washington.

Orion’s adoptive family, and four of the five
homes in which he spent time while in the foster
system, were not accepting of LGBTQ+ people. While
Orion initially believed the family he lived with
during high school would be supportive and came out
as transgender to them, that was unfortunately not
the case.
Midway through his senior year of high school,
Orion became homeless after his foster family did not
accept his gender identity and home “became unsafe”
for him. Even though Orion was a straight-A student
until then, he was forced to drop out of high school
32

because he could not attend classes or do his
homework while also trying to find enough to eat and
a safe place to stay.
Orion eventually found a shelter that was
LGBTQ+ friendly, which allowed him to meet his
daily needs, and start on a path to healing and
graduating from high school. Orion also found a
placement with a lesbian couple where he “fe[lt] safe
and accepted for who I was.” Orion explains that he
“benefitted tremendously from that placement” and
“[i]f they had not been allowed to be foster parents
because of their sexuality, I do not know where I
would be today.” Orion recalls that “[h]aving these
women accept me openly and warmly made me feel
valued” and, before experiencing that acceptance, he
had been contemplating taking his own life.
Orion’s story illustrates how devastating
rejection by a foster or adoptive family can be, and
how even a brief time with an accepting, LGBTQ+
foster family can provide LGBTQ+ youth with
strength and resilience in the face of adversity,
literally meaning the difference between life and
death.

33

Weston Charles-Gallo, Liberty, Missouri
Weston, pictured below, lives in Liberty,
Missouri.

Weston entered foster care at age 14 after
years of abuse and neglect by his biological parents
because of his sexual orientation. Weston’s social
worker “couldn’t find a home that was supportive of
me because I was gay,” and that “broke my heart
because all I wanted was a family that loved me for
me.” Weston “had to be careful how I presented
myself in order to ensure I wouldn’t be kicked out of
the place I was staying.” For two years, Weston’s
“feelings of hopelessness and despair began to
widen.”
34

At 16 years old, Weston “was on the brink of
living in the streets, and then everything changed. I
found a forever family with two dads and six siblings.
I can’t imagine where I would be right now if I hadn’t
found them.”
Weston explains that he can now “be the
person that I have always wanted to be. When I
found my two dads, I knew I finally found family. I
felt like someone had finally given me a chance –
rather than creating opinions based on the stack of
papers in my case file.”
Weston explains: “Family, at the end of the
day, is about love. No one should be limited in who
their family can be. … [W]ho you love shouldn’t
impact your support system and those who are
supposed to help you in life.”
Weston would not have found his forever
family if his two dads had not been permitted to
foster and adopt. “When you limit families who [can
foster or adopt], you leave kids feeling alone or in
residential facilities where they don’t have a home.
No child should live their childhood in a facility,
without a place to call home or without a family.”
*

*

*

*

*

Granting Petitioners’ claimed right to
discriminate when providing public foster care
services would leave already vulnerable LGBTQ+
youth subject to additional harm by limiting the
number and diversity of families available to foster
them. As the experiences of Amici demonstrate, the
foster care system currently struggles to provide
35

loving and supportive homes that respect these
LGBTQ+ youth for who they are.
Allowing
discrimination against LGBTQ+ families who can be
uniquely situated to understand of these youth’s
struggles will only make these challenges more
severe.
As Amici’s experiences show, the harms
suffered by LGBTQ+ youth overrepresented in the
foster system are far from hypothetical, not just in
Philadelphia, but also in cities across America.
For example, Shane R., of Minnesota, pictured
below, recalls that, in foster care, youth like Shane
get “one family who says they’ll love you no matter
what, but the second the door closes behind your
social worker they try and hurt you,” in Shane’s case
calling Shane an “abomination” because of Shane’s
LGBTQ+ identity. Shane shares that, for all foster

36

youth, including LGBTQ+ foster youth like Shane,
“all we want to do is be recognized and not hated,” to
“feel like we are normal,” and questions: “Don’t we
deserve a family? Don’t we deserve a chance at life?”
Other FosterClub youth report experiences
like these: being told there is something wrong with
them because they are LGBTQ+. Those experiences
cause depression, and all too frequently, suicidal
thoughts. Foster parents with experience supporting
LGBTQ+ youth, or who are LGBTQ+ themselves, can
make all the difference in whether youth remain
isolated or are able to flourish and grow.
While the experiences of Amici in this brief
principally address LGBTQ+ youth in the foster care
system, the scope of the Petitioners’ request will not
end with LGBTQ+ youth, but rather will affect many
other minority groups among foster youth, who have
already gone through so much merely by being in the
foster care system. FosterClub youth report not just
discrimination based on LGBTQ+ status, but also
religious discrimination: for example, youth who
practice traditional Native American spirituality or
are Muslim have been placed with families that do
not respect those beliefs. No youth should be forced
to abandon their religious beliefs in favor of those of
their foster family, nor should their ability to observe
their religious practices, such as dietary restrictions,
depend on the chance of their placement.
All foster children should be given the
opportunity to be supported, loved, and affirmed —
an opportunity that so many will be deprived of
should Petitioners be granted the relief sought. It is
37

already happening in this country, with agencies and
individuals saying that their religious beliefs prevent
them from offering foster services from families that
are not the “right” sexual orientation or religion. 8
The Court should not create a right to discriminate.
CONCLUSION
Amici’s
accounts
demonstrate
that
establishing a right to discriminate by governmentcontracted foster care agencies would have real and
significant consequences for the foster care system
and the youth it was created to protect. Petitioners’
request should be denied.
For these reasons, Amici respectfully urge the
Court to affirm the decision of the Third Circuit, in
all respects.

See Meg Kinnard, In lawsuit, a Catholic mother from
Simpsonville alleges discrimination by Miracle Hill, ASSOCIATED
PRESS,
Feb.
15,
2019,
https://www.greenvilleonline.com/story/news/2019/02/15/greenvi
lle-miracle-hills-ministries-foster-agency-lawsuit/2881913002/
(potential Catholic foster mother was “not the right kind of
Christian” for agency that also discriminated against other
faiths).
8

38

Respectfully submitted,
JESSE R. LOFFLER*
AMANDA L. NELSON
HARPER S. SELDIN
* Counsel of Record
COZEN O’CONNOR
45 Broadway, 23rd Floor
New York, New York 10006
jloffler@cozen.com
(212) 453-3926
Counsel for Amici Curiae

August 20, 2020

39

